HHS/OIG, Audit -"State of Maryland, Efforts to Account For and Monitor Sub-Recipients' Use of Bioterrorism Hospital Preparedness Planning Program Funds,"(A-03-03-00392)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"State of Maryland, Efforts to Account For and Monitor Sub-Recipients' Use of  Bioterrorism Hospital Preparedness
Planning Program Funds," (A-03-03-00392)
October 16, 2003
Complete
Text of Report is available in PDF format (257 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine whether the Maryland Department of Health and Mental Hygiene (State agency)
properly recorded, summarized and reported bioterrorism preparedness transactions in accordance with the terms and conditions
of the cooperative agreements and whether the State agency has established controls and procedures to monitor sub-recipient
expenditures of Health Resources and Services Administration (HRSA) funds.  We determined that the State agency generally
accounted for Program funds in accordance with the terms and conditions of the cooperative agreement and applicable departmental
regulations and guidelines.  However, the State agency did not segregate expenditures by phase, within phase, or by
priority area.  The State agency had a reporting system to track and monitor sub-recipient activities.  The State
agency contracted with the Maryland Hospital Association, Inc. to assist in the disbursement of funds awarded by HRSA to
Maryland for hospital sub-recipients.